Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




FDA INSPECTIONS OF DOMESTIC
      FOOD FACILITIES




                      Daniel R. Levinson
                       Inspector General

                         April 2010
                       OEI-02-08-00080
    E X E C U T I V E                            S U M M A R Y


                  OBJECTIVES
                  To determine the extent to which the Food and Drug Administration
                  (FDA):

                  1. conducts inspections of domestic food facilities,

                  2. identifies violations in food facilities and takes action against those
                     food facilities, and

                  3. ensures that violations are corrected.


                  BACKGROUND
                  Each year, more than 300,000 Americans are hospitalized and 5,000 die
                  after consuming contaminated foods and beverages. Recent high-profile
                  outbreaks of foodborne illness have raised serious questions about
                  FDA’s inspections process and its ability to protect the Nation’s food
                  supply. The Senate Committee on Agriculture, Nutrition, and Forestry
                  requested that the Office of Inspector General (OIG) review the extent
                  to which FDA conducts food facility inspections and identifies violations.

                  FDA inspects food facilities to ensure food safety and compliance with
                  regulations. During an inspection, FDA inspectors may identify
                  potential violations of the Food, Drug, and Cosmetic Act as well as other
                  applicable laws and regulations. Based on the outcome of the
                  inspection, FDA assigns a facility one of three classifications: official
                  action indicated (OAI), voluntary action indicated (VAI), or no action
                  indicated (NAI). In addition, FDA may choose to change a facility’s
                  initial classification to another classification under certain
                  circumstances.

                  According to FDA guidance, when inspectors uncover violations that are
                  significant enough to warrant OAI classification, some type of
                  regulatory action should be recommended. This regulatory action
                  generally consists of either an advisory action or an enforcement action.
                  Advisory actions usually allow an opportunity for the facility to
                  voluntarily correct the violations found during the inspection, whereas
                  enforcement actions are often initiated in court and the facility is
                  generally required to correct the violations found during the inspection.

                  FDA relies on several approaches to determine whether a facility
                  corrected the violations found by inspectors. FDA may review evidence
                  provided by a food facility describing any completed corrective actions.
                  FDA may also reinspect a facility to verify that corrections were made.

OEI-02-08-00080   FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S           i
E X E C U T I V E              S U           M M A R Y

                   We based this study on three data sources: (1) FDA’s food facility
                   inspection data, (2) FDA documentation on facility violations and
                   followup activities, and (3) structured interviews with FDA staff.


                   FINDINGS
                   On average, FDA inspects less than a quarter of food facilities each
                   year, and the number of facilities inspected has declined over time.
                   Between fiscal years (FY) 2004 and 2008, FDA inspected annually an
                   average of 24 percent of the food facilities subject to its inspection.
                   Except for a few instances, there are no specific guidelines that govern
                   the frequency with which inspections should occur. Further, the
                   number of food facilities that FDA inspected declined between
                   FYs 2004 and 2008, even as the number of food facilities increased. In
                   addition, the number of inspections of facilities that have been
                   designated by FDA as “high risk” has also declined. FDA officials noted
                   that the overall decline in FDA inspections was largely due to a decline
                   in staffing levels.
                   Fifty-six percent of food facilities have gone 5 or more years without
                   an FDA inspection. FDA identified 51,229 food facilities that were
                   subject to inspection and were in business from the start of
                   FY 2004 until the end of FY 2008. Of these, 56 percent were not
                   inspected at all, 14 percent were inspected a single time, and the
                   remaining 30 percent were inspected two or more times. If FDA does
                   not routinely inspect food facilities, it is unable to guarantee that these
                   facilities are complying with applicable laws and regulations.
                   The number of facilities that received OAI classifications has
                   declined over time. The number of inspected facilities that received
                   OAI classifications decreased from 614 in FY 2004 to 283 in
                   FY 2008. The percentage of facilities that received OAI classifications
                   also dropped from nearly 4 percent to nearly 2 percent during this
                   5-year period. In addition, nearly three-quarters of the facilities that
                   received OAI classifications in FY 2008 had a history of violations.
                   Two percent of facilities that received OAI classifications refused to
                   grant FDA officials access to their records.
                   FDA took regulatory action against 46 percent of the facilities with
                   initial OAI classifications; for the remainder, FDA either lowered the
                   classification or took no regulatory action. In FY 2007, a total of
                   446 facilities initially received OAI classifications. FDA took regulatory
                   action against 46 percent of these facilities. For the remainder, FDA


 OEI-02-08-00080   FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S           ii
E X E C U T I V E                   S U         M M A R Y

                  lowered the OAI classification for 29 percent and took no regulatory
                  action for 25 percent.
                  For 36 percent of the facilities with OAI classifications in FY 2007,
                  FDA took no additional steps to ensure that the violations were
                  corrected. In FY 2007, 280 facilities received OAI classifications that
                  were not lowered by FDA. For 36 percent of these facilities, FDA did
                  not reinspect them within a year of the inspection or review other
                  evidence provided by facilities to ensure that the violations were
                  corrected.


                  RECOMMENDATIONS
                  Our report found significant weaknesses in FDA’s domestic inspections
                  program. We found that there was a significant decline in the number
                  of food facility inspections as well as a decline in the number of
                  violations identified by FDA inspectors. Further, when violations were
                  identified, FDA did not routinely take swift and effective action to
                  ensure that these violations were remedied. Taken together, the
                  findings demonstrate that more needs to be done to protect public
                  health and to ensure that FDA has the necessary tools to prevent
                  outbreaks of foodborne illness. Based on our findings, we recommend
                  that FDA:

                  Increase the frequency of food facility inspections, with particular
                  emphasis on high-risk facilities.
                  Provide additional guidance about when it is appropriate to lower OAI
                  classifications.

                  Take appropriate actions against facilities with OAI classifications,
                  particularly those that have histories of violations.

                  Ensure that violations are corrected for all facilities that receive OAI
                  classifications.

                  Consider seeking statutory authority to impose civil penalties through
                  administrative proceedings against facilities that do not voluntarily
                  comply with statutory and regulatory requirements.
                  Seek statutory authority to allow FDA access to facilities’ records during
                  the inspection process.




OEI-02-08-00080   FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S           iii
E X E C U T I V E                   S U         M M A R Y 




                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its response to the draft report, FDA noted that it was addressing
                  many of the issues and recommendations noted in the report.
                  Specifically, FDA stated that it supported our two recommendations to
                  seek additional statutory authority from Congress. It noted that it is
                  seeking more effective enforcement tools and that it supports proposed
                  legislation to expand civil penalties for food violations and to provide
                  additional access to facilities’ records. FDA also agreed with our
                  recommendation to provide additional guidance about when it is
                  appropriate to lower OAI classifications and noted that it will revise its
                  current guidance.

                  For the remaining three recommendations, FDA noted several actions it
                  has taken, or plans to take, to address them. FDA stated that it
                  received increased appropriations that have permitted it to increase the
                  number of food facility inspections. It also stated that it has taken steps
                  to implement our recommendations to ensure that appropriate actions
                  are taken and that violations are corrected for all facilities that receive
                  OAI classifications.

                  We support FDA’s efforts and continue to emphasize the importance of
                  FDA taking appropriate and swift action and ensuring that violations
                  are corrected in all facilities with OAI classifications. We ask that, in
                  its final management decision, FDA more clearly indicate whether it
                  concurs with each of the recommendations listed in the report.




OEI-02-08-00080   FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S          iv
   T A B L E                   O F             C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i


                  INTRODUCTION ........................................... 1


                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                             On average, FDA inspects less than a quarter of food
                             facilities each year, and the number of facilities inspected
                             has declined over time . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                             Fifty-six percent of food facilities have gone 5 or more years
                             without an FDA inspection. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                             The number of facilities that received OAI classifications
                             has declined over time . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                             FDA took regulatory action against 46 percent of the facilities
                             with initial OAI classifications; for the remainder, FDA either
                             lowered the classification or took no regulatory action . . . . . . . . . 15

                             For 36 percent of the facilities with OAI classifications
                             in FY 2007, FDA took no additional steps to ensure that
                             the violations were corrected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                             Agency Comments and Office of Inspector General Response . . . 22



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                             A: Facilities Inspected by Industry, Fiscal Years 2004
                             and 2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                             B: Percentage of Inspected Food Facilities by Classification,
                             Fiscal Years 2004 and 2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                             C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




OEI-02-08-00080         FDA INSPECTIONS    OF   DO M E S TI C F O O D FA C IL IT I E S                                           0
           I N T R O D U C T I O N



                    OBJECTIVES
                    To determine the extent to which the Food and Drug Administration
                    (FDA):

                    1. conducts inspections of domestic food facilities,

                    2. identifies violations in food facilities and takes action against those
                       food facilities, and

                    3. ensures that violations are corrected.


                    BACKGROUND
                    Each year, more than 300,000 Americans are hospitalized and 5,000 die
                    after consuming contaminated foods and beverages. 1 FDA is
                    responsible for safeguarding the Nation’s food supply by ensuring that
                    all ingredients used in food are safe and that food is free of
                    disease-causing organisms, chemicals, or other harmful substances.
                    The recent salmonella outbreak caused by insanitary conditions at a
                    peanut processing plant resulted in one of the largest food recalls in
                    U.S. history. 2 This outbreak, as well as others resulting in large recalls
                    of spinach, tomatoes, peppers, lettuce, and alfalfa sprouts, has raised
                    serious questions about FDA’s inspections process and its ability to
                    protect the Nation’s food supply.

                    The Senate Committee on Agriculture, Nutrition, and Forestry requested
                    that the Office of Inspector General (OIG) review the extent to which FDA
                    conducts food facility inspections and identifies violations. Among other
                    things, the Committee was concerned about reports that the number of
                    food facility inspections is declining, even as the number of food facilities
                    regulated by FDA is increasing.



                    1 Paul S. Mead et al., “Food-Related Illness and Death in the United States,”   Emerging
                    Infectious Diseases, vol. 5, 1999, pp. 607–625. Available online at
                    http://www.cdc.gov/ncidod/eid/Vol5no5/mead.htm. Accessed on December 14, 2009.
                    2 FDA, Update on the Salmonella Typhimurium Investigation, FDA/CDC Joint Media
                    Teleconference, January 28, 2009. Available online at
                    http://www.fda.gov/downloads/NewsEvents/Newsroom/MediaTranscripts/UCM169176.pdf.
                    Accessed on August 11, 2009.




OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                              1
I N T R O D        U C T   I O N

                       Food Facility Inspections
                       FDA inspects food facilities to ensure food safety and compliance with
                       regulations. Pursuant to the Federal Food, Drug, and Cosmetic Act,
                       FDA is responsible for ensuring the safety of almost all food products
                       sold in the United States, with the exception of meat, poultry, and some
                       egg products, which are regulated by the U.S. Department of
                       Agriculture.

                       FDA inspects food facilities that manufacture, process, pack, and store
                       food. 3 Inspectors from FDA’s 19 district offices conduct these
                       inspections according to guidance from FDA headquarters. In addition,
                       FDA contracts with States to conduct inspections on behalf of FDA. 4
                       Except for a few instances, there are no specific guidelines that govern
                       the frequency with which inspections should occur. 5 Instead, FDA’s
                       district offices work with FDA headquarters to develop certain annual
                       priorities for inspection. Throughout the course of the year, however,
                       FDA may change its priorities based on emerging issues, such as
                       outbreaks of foodborne illness.

                       FDA also designates certain facilities as high-risk facilities. Generally,
                       these facilities handle types of food that have a greater potential to
                       cause harm. FDA uses this high-risk designation to help prioritize
                       facilities for inspection. This process allows FDA to target scarce
                       resources based on relative vulnerability and risk.

                       In recent years, FDA has experienced significant decreases in staffing
                       for its food program. Notably, in fiscal year (FY) 2003, FDA had
                       3,167 full-time equivalent employees (FTE) responsible for the oversight
                       of food facilities; by FY 2005, the number of employees had dropped to
                       2,943; and by FY 2007, the number was down to 2,569. 6 To address


                       3 21 U.S.C. § 374; 21 U.S.C. § 372.
                       4 FDA also has partnership agreements with some States. These agreements allow States
                       to share information with FDA about inspections they conduct.
                       5 FDA has specific guidelines for inspections of manufacturers of infant formula and
                       manufacturers of acidified and low-acid canned foods. These guidelines contain
                       recommendations on the frequency of inspections.
                       6 FTE data can be found in the FDA FY 2007 Budget Summary and the FY 2010
                       Congressional Justification. Available online at
                       http://www.fda.gov/AboutFDA/ReportsManualsForms/Reports/BudgetReports/2007FDABud
                       getSummary/ucm112799.htm and
                       http://www.fda.gov/downloads/AboutFDA/ReportsManualsForms/Reports/BudgetReports/U
                       CM153507.pdf. Accessed on October 2, 2009.




 OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                           2
    I N T R O D   U C T       I O N

                   concerns about staffing, in FY 2009, Congress increased funding for
                   FDA’s food program to a level that would support an estimated
                   3,019 FTEs. 7
                   During the course of FDA inspections, inspectors from the district
                   offices may identify potential violations of the Food, Drug, and Cosmetic
                   Act as well as other applicable laws and regulations. Inspectors
                   document their findings in a report, which is then reviewed by a
                   supervisor and, in some cases, other district officials. Based on the
                   outcome of the inspection, the district office assigns the facility one of
                   three classifications: official action indicated (OAI), voluntary action
                   indicated (VAI), or no action indicated (NAI). 8
                   An OAI classification signifies that the inspector found objectionable
                   conditions in the food facility and that these violations potentially
                   “warrant regulatory action.” 9 This type of violation is the most
                   significant identified by FDA inspectors. A VAI classification signifies
                   that the inspector found violations that are serious enough to record but
                   do not cross “the threshold for regulatory action.” 10 An NAI
                   classification signifies that the inspector found either no violations of
                   Federal law or violations that were so insignificant that no action is
                   warranted.

                   Under certain circumstances, FDA may change a facility’s inspection
                   classification. For example, FDA may modify a classification from OAI
                   to VAI if other FDA officials do not concur with the inspector’s initial



                   7 FDA,  FY 2010 Congressional Justification. Available online at
                   http://www.fda.gov/downloads/AboutFDA/ReportsManualsForms/Reports/BudgetReports/U
                   CM153507.pdf. Accessed on October 2, 2009.
                   8 FDA, Office of Regulatory Affairs (ORA): Field Management Directive No. 86:
                   Establishment Inspection Report Conclusions and Decisions (rev. 06/07/07). Available
                   online at
                   http://www.fda.gov/ICECI/Inspections/FieldManagementDirectives/ucm061430.htm
                   Accessed on June 2, 2009. In addition, under certain circumstances, inspections may also
                   be referred to the State when there is either no Federal jurisdiction over the violation in
                   question or when it is determined that State action is the most efficient method of obtaining
                   compliance. Inspections may also be referred to FDA headquarters when no clear policy has
                   been established for the violations or significant technical issues exist which require a
                   review and decision.
                   9 FDA,  ORA Field Management Directive No. 86. Available online at
                   http://www.fda.gov/ICECI/Inspections/FieldManagementDirectives/ucm061430.htm.
                   Accessed on June 2, 2009.
                   10 Ibid.




OEI-02-08-00080    FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                   3
    I N T R O D   U C T           I O N

                   classification. In addition, the classification may be lowered if the
                   facility takes, or promises to take, corrective action at some point after
                   the inspection. FDA may also raise a classification, for example, if a
                   facility promises during an inspection to make corrections and FDA
                   subsequently determines that the facility did not make those
                   corrections.
                   Actions Taken in Response to Violations
                   According to FDA guidance, when inspectors uncover violations that are
                   significant enough to warrant OAI classifications, some type of
                   regulatory action should be recommended.11 This regulatory action
                   generally consists of either an advisory action or an enforcement
                   action.12 Advisory actions usually allow an opportunity for the facility
                   to voluntarily correct the violations found during the inspection,
                   whereas enforcement actions are generally initiated in court.
                   Enforcement actions generally require facilities to correct the noted
                   violations or to destroy adulterated or misbranded products. In some
                   cases, an enforcement action may be pursued after a facility’s response
                   to an advisory action is deemed to be inadequate.
                   Advisory actions. FDA may initiate advisory actions in situations
                   involving violations of Federal law. These advisory actions include
                   issuing a warning letter or an untitled letter, or holding a regulatory
                   meeting.13 These actions allow facilities the opportunity to promptly
                   correct the violations found during the inspection.

                   FDA may issue a warning letter when it finds violations of Federal law
                   that may lead to an enforcement action if the violations are not
                   promptly and adequately corrected.14 FDA asks that facilities respond
                   to warning letters in writing within a specific timeframe (generally
                   within 15 days) to indicate what actions they will take to correct the
                   violations.15 FDA guidelines suggest that warning letters be issued
                   within 4 months of the last day of the inspection; the date of sample



                   11 Ibid. 

                   12 FDA,      Regulatory Procedures Manual, chs. 4, 5, 6, and 10, March 2009. 

                   13 FDA,  Regulatory Procedures Manual, ch. 4 and ch. 10, § 10-3, March 2009. Note that all 

                   warning letters and untitled letters must be submitted to FDA headquarters for review for 

                   legal sufficiency and consistency with agency policy. 

                   14 FDA,      Regulatory Procedures Manual, ch. 4, § 4-1-1, March 2009. 

                   15 FDA,      Regulatory Procedures Manual, ch. 4, § 4-1-10, March 2009. 





OEI-02-08-00080    FDA INSPECTIONS     OF   DO M E S TI C F O O D FA C IL IT I E S                                4
  I N T R O D     U C T       I O N

                    analysis; or the date of evidence collection.16 Warning letters are posted
                    on FDA’s Internet site.

                    FDA may issue an untitled letter when the violations are not significant
                    enough to meet the criteria for the issuance of a warning letter.17
                    Untitled letters summarize the inspection’s findings but do not include
                    a warning statement that failure to make prompt correction may result
                    in an enforcement action. They also request that the facility respond
                    within “a reasonable amount of time,” such as 30 days.18 Untitled
                    letters are not posted on FDA’s Internet site.

                    FDA may also request a regulatory meeting with representatives of a
                    facility to inform them about how one or more products, practices,
                    processes, or other activities are considered to be in violation of the
                    law.19 FDA often holds these meetings when violations do not warrant
                    the issuance of a warning letter or an untitled letter. However, in
                    certain instances, FDA may hold regulatory meetings in conjunction
                    with the issuance of a letter to emphasize the significance of the
                    violations.
                    Enforcement actions. FDA may initiate enforcement actions in situations
                    involving violations of Federal law that may not be resolved through
                    voluntary compliance. These enforcement actions may include
                    administrative detention,20 seizure, injunction, and even prosecution.21
                    Depending on the nature of the violations identified, FDA may initiate a
                    seizure or an injunction. A seizure often results in adulterated or
                    misbranded food being seized and removed from the marketplace. An
                    injunction often results in a facility receiving a court order prohibiting
                    the production or distribution of a product or forcing the facility to




                    16 FDA,   Regulatory Procedures Manual, ch. 4, Exhibit 4-1, § 6-1-1, March 2009. 

                    17 FDA,   Regulatory Procedures Manual, ch. 4, § 4-2-1, March 2009. 

                    18 FDA,   Regulatory Procedures Manual, ch. 4, § 4-1-10, March 2009. 

                    19 FDA, Regulatory Procedures Manual, ch. 10, § 10-3, March 2009. 

                    20 Although FDA may initiate certain administrative actions, such as administrative 

                    detentions, such actions are not commonly imposed against food facilities. 

                    21 FDA,   Regulatory Procedures Manual, ch. 4, § 4-1-1, March 2009. FDA may also, under 

                    certain circumstances, initiate other types of enforcement actions including civil monetary 

                    penalties and mandatory recalls of infant formula (FDA, Regulatory Procedures Manual, 

                    ch. 5, § 5-8, and ch. 7, March 2009). 





OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                   5
      I N T R O D   U C T         I O N

                    correct the conditions that caused the violation to occur. 22 In general,
                    FDA initiates these particular enforcement actions by working with the
                    Department of Justice to file a complaint with the U.S. District Court
                    where the facility holding the product is located. In addition, under
                    certain circumstances, FDA may recommend criminal prosecution to the
                    Department of Justice for a food facility or individual who is in violation
                    of the law. 23
                    Approaches To Ensure That Violations Are Corrected
                    FDA relies on several approaches to determine whether a facility
                    corrected the violations found by inspectors. FDA may review evidence
                    provided by a food facility describing any completed corrective actions,
                    including reports from private consultants detailing corrective actions
                    that have been taken.

                    In addition, FDA may conduct followup inspections to ensure that
                    facilities have corrected the violations. FDA guidelines state that, if
                    necessary to ensure that corrections have been implemented, “follow-up
                    inspections should be conducted promptly after the agreed upon date of
                    completion of the promised corrections.” 24 FDA guidelines also suggest
                    that facilities receiving OAI classifications be given a higher priority for
                    followup inspections. 25
                    Related Reports
                    This report is a part of a larger body of work conducted by OIG on food
                    safety. In a 2009 report on food traceability, OIG found that
                    35 of 40 selected products could not be traced through each stage of the
                    food supply chain. 26 It also found that 59 percent of selected food
                    facilities did not comply with FDA’s recordkeeping requirements and
                    that these requirements were not sufficient to ensure the traceability of
                    the food supply. OIG also issued a report which found that 5 percent of
                    selected facilities failed to register with FDA, as required. 27
                    Additionally, that report found that 48 percent of the selected facilities



                    22 FDA,   Regulatory Procedures Manual, ch. 6, §§ 6-1 (Seizures) and 6-2 (Injunctions),
                    March 2009.
                    23 FDA,   Regulatory Procedures Manual, ch. 5, March 2009.
                    24 FDA,   Regulatory Procedures Manual, ch. 4, § 4-1-8, March 2009.
                    25 FDA, Compliance Program Guidance                     Manual, ch. 3, pt. II, p. 2.
                    26 OIG, Traceability in the Food Supply                 Chain, OEI-02-06-00210, March 2009.
                    27 OIG,   FDA’s Food Facility Registry, OEI-02-08-00060, December 2009.




OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                 6
    I N T R O D   U C T        I O N

                   either failed to provide accurate information when they first registered
                   or after changes in the facilities’ information, as required.

                   In another 2009 report, OIG found that FDA does not have statutory
                   authority to require manufacturers to initiate pet food recalls and that
                   FDA did not always follow its procedures in overseeing pet food
                   recalls. 28 OIG recommended that FDA consider seeking statutory
                   authority to mandate food recalls and to assess penalties for
                   noncompliance with the terms of recalls. It also recommended that FDA
                   amend its regulations or, if necessary, seek additional legislative
                   changes to establish mandatory requirements for facilities to follow in
                   conducting recalls.


                   METHODOLOGY
                   Scope
                   This study assesses the extent to which FDA conducted inspections and
                   identified violations in domestic food facilities. It also assesses the
                   extent to which FDA took action against food facilities with violations
                   and ensured that these violations were corrected.

                   This study includes inspections of domestic food facilities conducted by
                   FDA or by States under contract with FDA. We based this study on
                   three sources of data: (1) FDA’s food facility inspection data, (2) FDA
                   documentation on facility violations and followup activities, and
                   (3) structured interviews with FDA staff.
                   Analysis of FDA Food Inspection Data
                   To determine the extent to which FDA conducts inspections of domestic
                   food facilities, we analyzed data from FDA’s Field Accomplishments and
                   Compliance Tracking System (FACTS). FACTS includes information
                   about all FDA inspections as well as the classifications for each.

                   We requested FACTS data from FDA for all domestic food facility
                   inspections for FYs 2004 through 2008. We also requested from FDA
                   the number of food facilities within FDA’s jurisdiction each year and
                   those that were in business throughout this 5-year period. We analyzed
                   these data to determine the percentage of facilities that FDA inspected


                   28 OIG,   Review of the Food and Drug Administration’s Monitoring of Pet Food Recalls,
                   A-01-07-01503, August 2009. Recalls are voluntary actions taken by facilities and are
                   therefore not included in our analysis of regulatory actions taken by FDA.




OEI-02-08-00080    FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                            7
  I N T R O D     U C T     I O N

                    each year and the percentage of facilities that FDA inspected during
                    this 5-year period. We also determined the percentage of high-risk
                    facilities that FDA inspected each year. We considered a facility to be
                    high risk if it had a high-risk designation throughout the entire fiscal
                    year.

                    In addition, we analyzed FACTS data to determine the extent to which
                    FDA identified food facility violations. Specifically, we determined the
                    number of facilities that received OAI, VAI, and NAI classifications each
                    year. We also used these data to identify the most commonly reported
                    violations found in facilities with OAI classifications and the extent to
                    which these facilities had a history of violations.
                    Review of FDA Documentation
                    To determine the extent to which FDA took action against food facilities
                    with violations and ensured that those violations were corrected, we
                    requested from FDA all documentation related to OAI classifications
                    received by facilities in FY 2007. 29 We chose FY 2007 because it was
                    the most current timeframe that would also allow FDA sufficient time
                    to initiate any actions and to complete any additional activities to
                    ensure that the violations were corrected. We requested this
                    documentation for all facilities that received OAI classifications,
                    including those for which FDA eventually lowered the classification. In
                    this report, we refer to these as facilities that received “initial OAI
                    classifications” to distinguish them from facilities that received OAI
                    classifications that were not lowered.

                    We specifically requested documentation of any advisory actions and
                    enforcement actions that FDA initiated that were related to these OAI
                    classifications. We also requested documentation of any additional
                    inspections and any other activities that FDA conducted to ensure that
                    the violations were corrected. FDA provided this documentation for
                    actions taken as of April 2009.

                    We reviewed the documentation to determine the percentage of facilities
                    for which FDA took advisory actions and enforcement actions. We also
                    determined the percentage of facilities for which FDA lowered the OAI
                    classification and the reasons for these decisions. Lastly, we reviewed


                    29 Nineteen facilities had more than one inspection that resulted in an OAI classification in
                    FY 2007. In these cases, we requested documentation related to the first inspection that
                    occurred in the fiscal year.




OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                   8
  I N T R O D     U C T    I O N

                    the documentation to determine any additional steps that FDA took to
                    ensure that violations were corrected. We conducted this analysis for
                    facilities that received OAI classifications that were not lowered by
                    FDA. We specifically looked at whether FDA reinspected the facility
                    within 1 year of the initial inspection and whether FDA conducted any
                    additional followup to ensure that the violations were corrected. As
                    noted earlier, FDA guidelines do not specify a timeframe in which
                    reinspections must occur; however, for the purposes of our analysis, we
                    determined that a year is a reasonable amount of time for FDA to assess
                    whether the facilities had promptly and adequately addressed the
                    violations found during their inspections.
                    Structured Interviews With FDA Officials
                    We conducted structured telephone interviews with key staff at FDA
                    headquarters and at 10 of the 19 district offices. We selected the
                    10 district offices that had the most food facilities within their
                    jurisdictions and had conducted the most food facility inspections in
                    FY 2007. Our interview questions focused on how the district offices
                    classify food facility inspections and under what circumstances they
                    choose to take advisory actions and enforcement actions. We conducted
                    the interviews with the district offices between September and October
                    2008 and with headquarters staff throughout the course of the study.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S            9
           F I N D I N G S
On average, FDA inspects less than a quarter           Between FY 2004 and FY 2008, FDA
of food facilities each year, and the number of        inspected annually an average of
    facilities inspected has declined over time        24 percent of the food facilities that
                                                       were subject to FDA inspection.
                     Except for a few instances, there are currently no specific guidelines
                     that govern the frequency with which inspections should occur. As
                     shown in Table 1, the percentage of food facilities that FDA inspected
                     annually ranged from 29 to 22 percent during this period.
                     In addition, the number of food facilities that FDA inspected declined,
                     even as the number of food facilities increased. In FY 2004, FDA
                     inspected over 17,000 facilities; in FY 2008, this number dropped to
                     fewer than 15,000 facilities. During the same period, the number of
                     food facilities subject to FDA inspection increased from about
                     59,000 facilities to almost 68,000 facilities. FDA officials noted that the
                     decline in inspections was largely due to a significant decline in staffing
                     levels that resulted from funding cuts. These officials noted that
                     between 2003 and 2008, FDA lost almost a quarter of the staff that
                     performs food facility inspections. They also noted that many of the
                     losses came from the ranks of FDA’s most experienced employees.

                      Table 1: Food Facilities Inspected by FDA, FYs 2004–2008

                                           Number of Food                                              Percentage of
                                        Facilities Subject to                     Number of Food      Food Facilities
                                            FDA Inspection                     Facilities Inspected        Inspected
                      FY

                      2004                                 59,305                         17,032               29%

                      2005                                 61,930                         15,773               25%

                      2006                                 62,929                         14,547               23%

                       2007                                65,520                         14,339               22%

                      2008                                 67,819                         14,966               22%
                     Source: OIG analysis of FDA data, 2009.



                     The number of high-risk facilities inspected by FDA has also declined over
                     time
                     Each year, FDA designates certain facilities as high risk. This
                     designation helps FDA determine which facilities should be given a
                     higher priority for inspection. As shown in Table 2, the number of
                     high-risk facilities that FDA inspected decreased from about
                     6,200 facilities in FY 2004 to 5,500 facilities in FY 2008. The


OEI-02-08-00080      FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                      10
  F   I N D I N G    S

                      percentage of high-risk facilities that FDA inspected annually decreased
                      from 77 percent to 63 percent.
                         Table 2: High-Risk Food Facilities Inspected by FDA,
                         FYs 2004–2008

                                             Number of                                   Number of          Percentage of
                                         High-Risk Food                           High-Risk Food         High-Risk Food
                                               Facilities                      Facilities Inspected   Facilities Inspected
                         FY

                         2004                             8,102                              6,241                   77%

                         2005                             8,330                              5,547                   67%

                         2006                             8,347                              5,664                   68%

                         2007                             8,568                              5,535                   65%

                         2008                             8,667                              5,460                   63%
                     Source: OIG analysis of FDA data, 2009.



                      Further, FDA inspected a smaller percentage of facilities in industries
                      that produce certain high-risk food products, such as cheese and
                      seafood. For example, in FY 2004, FDA inspected 45 percent of facilities
                      in the seafood industry, whereas in FY 2008, FDA inspected only
                      32 percent of such facilities. See Appendix A for more information on
                      inspections by industry.

                                                              FDA identified 51,229 food
 Fifty-six percent of food facilities have gone 5 or
                                                              facilities that were subject to FDA
            more years without an FDA inspection              inspection and were in business
                      from the start of FY 2004 until the end of FY 2008. 30 FDA inspected
                      only 44 percent (22,531) of these facilities during this 5-year period. As
                      shown in Figure 1, 56 percent of these facilities were not inspected at
                      all, 14 percent were inspected a single time, and the remaining
                      30 percent were inspected two or more times.
                      If FDA does not routinely inspect food facilities, it is unable to
                      guarantee that these facilities are complying with applicable laws and
                      regulations and that the food handled by these facilities is safe and free
                      of disease-causing organisms, chemicals, or other harmful substances.




                      30 This excludes facilities within FDA’s jurisdiction that began doing business at some point
                      after October 1, 2004, as well as those that went out of business before September 30, 2008.




OEI-02-08-00080       FDA INSPECTIONS    OF   DO M E S TI C F O O D FA C IL IT I E S                                         11
    F   I N D I N G        S

                  Figure 1:
                                                   Facilities Inspected
                 Number of                         Three or More
               Inspections                         Times
                  per Food                         (21%)
                   Facility
                  Between
              FYs 2004 and                 Facilities
                                                                                            Facilities Not
                                           Inspected
                      2008                 Two Times                                        Inspected
                                           (9%)                                             (56%)



                                                      Facilities
                                                      Inspected
                                                      One Time                                   N = 51,229
                                                      (14%)

                               Source: OIG analysis of FDA data, 2009.




             The number of facilities that received OAI            Facilities receive OAI
                                                                   classifications when inspectors
                classifications has declined over time
                                                                   determine that the violations
                          found are significant enough to potentially warrant regulatory action,
                          such as an advisory action or an enforcement action. As shown in
                          Table 3, the number of inspected facilities that received OAI
                          classifications decreased from 614 facilities in FY 2004 to 283 facilities
                          in FY 2008. The percentage of facilities that received OAI
                          classifications also dropped from nearly 4 percent to nearly 2 percent
                          during this 5-year period. See Appendix B for additional information on
                          the percentage of facilities that received NAI and VAI classifications.




OEI-02-08-00080           FDA INSPECTIONS     OF   DO M E S TI C F O O D FA C IL IT I E S                     12
    F      NDINGS


                  Table 3: Food Facilities That Received OAI Classifications,
                  FYs 2004-2008
                                                                             Number of Food               Percentage of Food
                                                                               Facilities That       Facilities Inspected That
                                         Number of Food                        Received OAI                       Received OAI
                                       Facilities Inspected                   Classifications                   Classifications
                   FY

                   2004                               17,032                               614                              3.6%

                   2005                               15,773                               511                              3.2%

                   2006                               14,547                               432                              3.0%

                   2007                               14,339                               304                              2.1%

                   2008                               14,966                               283                              1.9%

                  Note: For FY 2007, we did not include 17 facilities for which FDA officials had incorrectly entered OAI
                  classifications in FACTS and 5 facilities that received an OAI classification for a nonfood-related inspection.
                  We did not have information on data entry errors for the other years.

                  Source: OIG analysis of FDA data, 2009.


                  Facilities most commonly received OAI classifications for unsafe food
                  manufacturing and handling practices and insanitary conditions in the
                  facility
                  FDA identified unsafe food manufacturing and handling practices or
                  insanitary conditions in 89 percent of the facilities that received OAI
                  classifications in FY 2008. 31 Specifically, FDA identified unsafe
                  manufacturing and handling practices in 77 percent of these facilities
                  and insanitary conditions in 44 percent of these facilities. These types
                  of violations could lead to contaminated food products being sold to
                  consumers.
                  Unsafe manufacturing and handling practices cited by inspectors
                  commonly included failure to maintain refrigeration units at safe
                  temperatures, inadequate design of manufacturing equipment, and
                  improper handling of food products. For example, one inspector found
                  that a facility improperly handled its food products by placing ice made
                  from contaminated water in direct contact with the food manufactured
                  at the facility. Insanitary conditions in the facility often included
                  instances of mold or filth or evidence of insects, rodents, or other
                  infestations. For example, one inspector observed that pigeons were


                  31 A facility may be cited for multiple types of violations during a single inspection. Other
                  types of violations found by inspectors included labeling violations and failure to register
                  the facility with FDA.




OEI·02-08·00080   FDA INSPECTIONS OF DOMESTIC FOOD FACILITIES                                                                       13
         F   I N D I N G    S

                      flying and roosting above open containers of food in a facility. The
                      inspector noted that “bird droppings were observed on equipment” and
                      that there were holes in the walls and roof of the facility.
                      Nearly three-quarters of the facilities that received OAI classifications in
                      FY 2008 had a history of violations
                      Seventy-four percent of the facilities that received OAI classifications in
                      FY 2008 had a history of violations found during prior inspections.
                      Specifically, 63 percent of these facilities received at least one prior VAI
                      classification, and 27 percent received at least one prior OAI
                      classification.

                      In addition, 50 percent of the facilities that received OAI classifications
                      in FY 2008 had been cited for the same violation in a prior inspection.
                      For example, one facility had already received a warning letter for not
                      adequately cleaning its manufacturing equipment, for insanitary
                      conditions in the facility, and for labeling violations. The subsequent
                      inspection revealed that the facility had failed to correct these
                      violations. In another facility, FDA found the same unsafe
                      manufacturing practices and insanitary conditions during the previous
                      four inspections. After each inspection, the facility promised to make
                      corrections but each subsequent inspection revealed that it had not.
                      Two percent of the facilities that received OAI classifications refused to
                      grant FDA officials access to their records; most of these facilities had a
                      history of violations
                      Five facilities—four of which had a history of violations—refused to
                      provide FDA inspectors with certain requested records. This lack of
                      access to records might impede FDA’s ability to determine the most
                      appropriate action to take to ensure compliance with applicable laws
                      and regulations. These records included descriptions of sanitation
                      practices within the facility, lists of customers that received the facility’s
                      products, or descriptions of consumer complaints. FDA does not have
                      the statutory authority to require food facilities to provide access to
                      these records. 32




                      32 FDA has access to certain records held by infant formula facilities as well as certain
                      records needed to trace an article of food through the food supply chain. The limited
                      circumstances under which FDA can access these records are described in
                      21 U.S.C. §§ 374 and 350.




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                               14
    F   I N D I N G       S

                                                                      According to FDA guidance,
        FDA took regulatory action against 46 percent of              when inspectors uncover
      the facilities with initial OAI classifications; for the        violations that are
     remainder, FDA either lowered the classification or              significant enough to
                                   took no regulatory action          warrant OAI classifications,
                                                                      some type of regulatory
                         action should be recommended. This regulatory action generally
                         consists of either an advisory action or an enforcement action; however,
                         under certain circumstances, FDA may also lower a classification.
                         In FY 2007, a total of 446 facilities initially received OAI classifications.
                         FDA took regulatory action against 46 percent of these facilities. For
                         the remainder, FDA lowered the OAI classification for 29 percent and
                         took no regulatory action for 25 percent. See Figure 2.


                         Figure 2:
                   Actions Taken            FDA Lowered the
                  After Facilities          OAI Classification
                    Received OAI            (29%)
                  Classifications,
                          FY 2007
                                                                                         FDA Took
                                                                                         Regulatory
                                                                                         Action
                                                                                         (46%)



                                                  FDA Did Not
                                                  Take
                                                  Regulatory
                                                  Action (25%)
                                                                                               N = 446

                                     Source: OIG analysis of FDA data, 2009.




                         Of the facilities that received initial OAI classifications, FDA took advisory
                         actions against 44 percent and enforcement actions against 2 percent
                         Depending on the severity of the violations and any history of violations,
                         FDA may choose to initiate an advisory action or an enforcement action.
                         These actions can be taken independently or in combination with one
                         another.




OEI-02-08-00080          FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                   15
    F   I N D I N G    S

                      Advisory actions. Of the 446 facilities that received initial OAI
                      classifications in FY 2007, FDA took advisory actions against
                      44 percent. 33 Advisory actions allow an opportunity for a facility to
                      voluntarily correct the violations found during the inspection. Advisory
                      actions include warning letters, untitled letters, and regulatory
                      meetings.

                      Specifically, FDA issued warning letters to 20 percent of the facilities
                      with initial OAI classifications. In these letters, FDA requested that
                      the facilities implement corrective action to remedy the violations. On
                      average, FDA took 100 days after the last day of an inspection to issue a
                      warning letter; however, for one-third of these facilities, FDA took
                      longer than 4 months to issue the warning letters, potentially exceeding
                      recommended guidelines. In addition, FDA asked that facilities respond
                      in writing within 15 business days of receiving the warning letter;
                      however, only 52 percent of these facilities responded within this
                      timeframe, and another 26 percent did not respond to FDA at all.

                      FDA issued untitled letters to 13 percent of the facilities with initial
                      OAI classifications. FDA issues such letters when the violations found
                      during an inspection are not determined to be significant enough for the
                      issuance of a warning letter.

                      In addition, FDA conducted regulatory meetings with 12 percent of the
                      facilities with initial OAI classifications. FDA generally holds such
                      meetings to encourage voluntary compliance when the violations do not
                      warrant the issuance of a letter. For most of these facilities, this was
                      the only action taken.
                      Enforcement actions. FDA brought enforcement actions against
                      2 percent of the facilities that received initial OAI classifications in
                      FY 2007. FDA obtained injunctions against seven facilities and seized
                      products at three facilities. FDA generally initiates enforcement actions
                      in situations involving significant violations of Federal law. For
                      example, FDA obtained an injunction after inspecting the same facility
                      seven times in 6 years and consistently finding that the facility’s seafood
                      products were transported and refrigerated at inadequate



                      33 Note that for 2 percent of facilities that received initial OAI classifications, FDA initiated
                      multiple advisory actions, such as issuing a warning letter as well as holding a regulatory
                      meeting.




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                       16
  F   I N D I N G   S

                    temperatures. In another facility, FDA was able to prevent the sale of
                    potentially adulterated food by seizing over 26,000 pounds of rice after
                    an inspection revealed a widespread rodent infestation.
                    FDA lowered the classification of 29 percent of the food facilities that
                    received initial OAI classifications
                    As noted earlier, under certain circumstances, FDA may choose to lower
                    an inspection classification. FDA lowered the classifications of
                    29 percent of the facilities that received initial OAI classifications in
                    FY 2007. 34 The most common reason that FDA district offices provided
                    for lowering the classification was that other FDA district officials did
                    not concur with an inspector’s initial classification. The second most
                    common reason for lowering the classification was that the facility
                    either took or promised to take corrective actions to address violations
                    identified during the inspection. In addition, a small number of these
                    classifications were lowered because FDA headquarters officials did not
                    approve the issuance of a warning letter.

                    FDA district offices appeared to be inconsistent in their approach to
                    lowering classifications. For example, some district offices did not lower
                    their OAI classifications after a facility promised to take corrective action,
                    whereas other district offices did this more commonly. Similarly, some
                    district offices lowered their OAI classifications when FDA headquarters
                    did not approve the issuance of a warning letter, whereas other district
                    offices retained the initial OAI classification. Finally, some district offices
                    lowered the OAI classifications for which they had already taken
                    regulatory action. In many of these cases, FDA reported lowering the
                    classifications because the facilities’ response to the action was deemed to
                    be adequate.
                    FDA took no regulatory action against 25 percent of the food facilities that
                    received initial OAI classifications
                    Of the facilities that received initial OAI classifications in FY 2007,
                    FDA did not take regulatory action against 25 percent. This means that
                    FDA did not take either an advisory action or an enforcement action
                    against the facilities nor did it lower its initial classification. For over
                    half of these facilities, FDA officials noted that they did not issue a
                    warning letter due to their interpretation of FDA’s technical guidance.


                    34 In addition, FDA took regulatory action and then lowered the OAI classifications of
                    28 facilities.




OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                            17
   F   I N D I N G     S

                        Specifically, these officials reported that they did not issue a warning
                        letter because the time it took the agency to prepare the letter exceeded
                        the recommended 4-month timeframe for the issuance of warning
                        letters, or because FDA had already issued a warning letter to the
                        facility for a prior inspection. In other cases, FDA officials noted that
                        they did not take regulatory action because they determined that the
                        facilities had adequate plans in place to correct the violations. However,
                        for 42 percent of the facilities with no regulatory action, FDA had no
                        information about whether the facilities had corrected the violations.


                                                                      In FY 2007, 280 facilities
For 36 percent of the facilities with OAI classifications in
                                                                      received OAI classifications
FY 2007, FDA took no additional steps to ensure that the              that were not lowered by
                                 violations were corrected            FDA. 35 For 36 percent of
                        these facilities, FDA did not reinspect the facilities within a year of the
                        inspection or review other evidence provided by facilities to ensure that
                        the violations were corrected. If FDA does not ensure that violations
                        are corrected in a timely manner, it is unable to guarantee that these
                        facilities are complying with applicable laws and regulations and that
                        the food handled by these facilities is safe and free of disease-causing
                        organisms, chemicals, or other harmful substances.
                        For the remaining facilities, FDA took additional steps to ensure that
                        the violations had been corrected. Specifically, FDA reinspected
                        35 percent of the facilities within a year of the initial inspection. For an
                        additional 30 percent of facilities, FDA reported that it reviewed some
                        type of evidence from the facility that demonstrated that the facility had
                        corrected violations. Examples of this evidence included photographs
                        documenting corrections made in the facility, revised food labels
                        documenting changes made to correct labeling violations, or a
                        description of how employees were counseled as a means to improving
                        food safety. It is important to note, however, that in the absence of
                        another inspection, FDA may have been unable to verify whether the
                        evidence provided was an accurate and truthful depiction of the
                        corrections made by the facility.


                        35 This excludes nine facilities that went out of business or ceased production. This number
                        differs from the number presented in Table 3, possibly because our documentation review
                        included classifications that had been lowered as of April 2009, whereas the FACTS data
                        included classifications that had been lowered as of July 2008.




 OEI-02-08-00080        FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                                  18
    F   I N D I N G    S

                      In addition, for a large number of the facilities that were reinspected,
                      FDA continued to find violations of FDA laws and regulations.
                      Specifically, in 26 percent of facilities that were reinspected, FDA found
                      violations that warranted OAI classifications. In another 47 percent of
                      facilities that were reinspected, FDA found violations that warranted
                      VAI classifications.




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                19
           R E C O M M E N D A T I O N S




                    Our report found significant weaknesses in FDA’s domestic inspections
                    program. Notably, FDA inspects less than a quarter of food facilities
                    each year and more than half of all food facilities have gone 5 or more
                    years without an FDA inspection. If FDA does not routinely inspect
                    food facilities, it is unable to guarantee that these facilities are
                    complying with applicable laws and regulations and that the food
                    handled by these facilities is safe.

                    Our report also found that the number of violations identified in food
                    facility inspections has declined over time and that food facilities most
                    commonly received violations because FDA inspectors found insanitary
                    conditions or unsafe food manufacturing and handling practices. In
                    addition, nearly three-quarters of the facilities with OAI classifications
                    had a history of significant violations, and some of those facilities
                    refused to grant FDA officials access to their records. Because of the
                    serious nature of these violations, FDA must take swift and effective
                    action to ensure that the violations are remedied. However, we found
                    that FDA took no regulatory action against a quarter of facilities with
                    initial OAI classifications in FY 2007 and often did not take additional
                    steps, such as reinspecting these facilities, to ensure that the violations
                    were corrected.

                    Taken together, these findings demonstrate that more needs to be done
                    to protect public health and to ensure that FDA has the necessary tools
                    to prevent outbreaks of foodborne illness. Based on our findings, we
                    recommend that FDA:

                    Increase the frequency of food facility inspections, with particular emphasis
                    on high-risk facilities
                    FDA should attempt to inspect a higher proportion of food facilities
                    within a 5-year period, as well as inspect a greater number of high-risk
                    facilities. As part of this effort, FDA should consider developing
                    guidelines for how frequently it should inspect food facilities,
                    particularly those that are high risk.




OEI-02-08-00080     FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                 20
    R   E C O     M M E N D A T               I O N              S

                      Provide additional guidance about when it is appropriate to lower OAI
                      classifications
                      FDA should develop more specific guidance describing when it is
                      appropriate to lower OAI classifications. This guidance should
                      encourage district offices to be consistent in their approach to lowering
                      classifications. Greater consistency in FDA’s approach will help to
                      ensure that OAI classifications are adequately addressed and that the
                      violations that led to the OAI classifications are remedied.

                      Take appropriate actions against facilities with OAI classifications,
                      particularly those that have histories of violations
                      FDA should take appropriate regulatory action against facilities with
                      OAI classifications that are not lowered. Facilities that receive OAI
                      classifications have significant violations and FDA should take
                      appropriate actions against these facilities.

                      In addition, FDA should take stronger actions against facilities that
                      have a history of serious violations, particularly those that are cited for
                      the same violations multiple times. FDA should also take stronger
                      actions against facilities that do not voluntarily comply with requests to
                      remedy violations. These actions could range from posting untitled
                      letters on the FDA Internet site in situations where facilities fail to
                      comply, to initiating a seizure or injunction.

                      Ensure that violations are corrected for all facilities that receive OAI
                      classifications
                      FDA should take steps to ensure that violations are corrected within a
                      reasonable amount of time from the initial inspection. Specifically, FDA
                      should reinspect facilities that receive OAI classifications or conduct
                      other followup activities to verify that the violations are remedied in a
                      timely manner. In addition, FDA should develop more specific guidance
                      about what steps it should take to ensure that violations are corrected.

                      Consider seeking statutory authority to impose civil penalties through
                      administrative proceedings against facilities that do not voluntarily comply
                      with statutory and regulatory requirements
                      Penalties should be levied against facilities that either fail to
                      voluntarily correct violations or have a significant history of violations.
                      Civil penalties could be an effective method of encouraging facilities to
                      comply with statutory and regulatory requirements designed to
                      safeguard the Nation’s food supply.




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                 21
    R   E C O     M M E N D A T               I O N              S

                      Seek statutory authority to allow FDA access to facilities’ records during the
                      inspection process
                      This additional authority will help FDA to uncover additional violations
                      that may otherwise go undetected and to determine the most
                      appropriate actions to remedy those violations.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its response to the draft report, FDA noted that it was addressing
                      many of the issues and recommendations noted in the report. FDA also
                      noted that effective enforcement and compliance with FDA regulations
                      will contribute to a stronger food safety system, and that improving the
                      speed and predictability of followup to inspections is a top agency goal.

                      Specifically, FDA stated that it supported our two recommendations to
                      seek additional statutory authority from Congress. It noted that it is
                      seeking more effective enforcement tools and that it supports proposed
                      legislation to expand civil penalties for food violations and to provide
                      additional access to facilities’ records. FDA also agreed with our
                      recommendation that it provide additional guidance about when it is
                      appropriate to lower OAI classifications and noted that it will revise its
                      current guidance.

                      For the remaining three recommendations, FDA noted several actions it
                      has taken, or plans to take, to address them. FDA stated that it
                      received increased appropriations that have permitted it to increase the
                      number of food facility inspections. In FY 2009, FDA increased the
                      number of field staff for its food program and plans additional increases
                      in FY 2010. It also stated that it has taken steps to implement our
                      recommendations to ensure that appropriate actions are taken and that
                      violations are corrected for all facilities that receive OAI classifications.
                      Specifically, FDA noted that it had several new initiatives designed to
                      ensure that enforcement actions it takes are swift, aggressive, and will
                      have a positive impact on public health. Notably, FDA will make it a
                      priority to follow up promptly and with the appropriate action for all
                      facilities that receive warning letters.

                      FDA will also develop a new warning letter closeout process to ensure
                      that all violations are addressed. Additionally, in cases in which FDA
                      identifies significant health concerns or other egregious violations, it
                      will no longer issue multiple warning letters to noncompliant facilities
                      before taking enforcement actions.

OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S                   22
    R   E C O     M M E N D A T               I O N              S
                      We support FDA’s efforts and continue to emphasize the importance of
                      FDA taking appropriate and swift action and ensuring that violations
                      are corrected in all facilities with OAI classifications. In addition, we
                      ask that, in its final management decision, FDA more clearly indicate
                      whether it concurs with each of the recommendations listed in the
                      report.

                      For the full text of FDA’s comments, see Appendix C.




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S               23
             A P P E N D I X                                A


         Table A-1: Facilities Inspected by Industry, Fiscal Years 2004 and 2008

                                                      Number of                 Percentage of          Number of      Percentage
                                                       Facilities                   Facilities          Facilities    of Facilities
            Top 10 Industries                       Inspected in                 Inspected in        Inspected in    Inspected in
            Inspected, FY 2008                          FY 2004                      FY 2004             FY 2008          FY 2008

          Fishery/seafood products                            3,803                            45%         2,927             32%

          Multiple food warehouses                            1,575                            12%         2,058             16%

          Bakery products                                     2,230                            41%         1,844             24%

          Vegetables and vegetable
          products                                            1,491                            23%         1,590             20%

          Fruit and fruit products                            1,321                            25%         1,061             15%

          Food services and
          conveyances                                         1,216                            29%           855             22%

          Multiple-food dinners                               1,079                            40%           816             22%

          Soft drinks and water                                  755                           29%           710             16%

          Cheese and cheese
          products                                               786                           60%           670             28%

          Chocolate and cocoa
          products                                               427                           32%           357             12%
         Note: The top 10 industries inspected were different for FYs 2004 and 2008.
         Source: Office of Inspector General analysis of Food and Drug Administration data, 2009.




OEI-02-08-00080                   FDA INSPECTIONS     OF   DO M E S TI C F O O D FA C IL IT I E S                                     24
           A P P E N D I X                      B


  Figure B-1: Percentage of
   Inspected Food Facilities
     by Classification, Fiscal
        Years 2004 and 2008                                         NAI, 61%                                  VAI, 37%         OAI, 2%

                                         2008




                                                                      NAI, 56%                             VAI, 41%            OAI, 4%

                                         2004




                                                                                  No Action Indicated (NAI)

                                                                                  Voluntary Action Indicated (VAI)

                                                                                  Official Action Indicated (OAI)



                                 Note: If a facility received more than one inspection classification in a year, we counted that facility as having
                                 received only the most significant classification.
                                 Source: Office of Inspector General analysis of Food and Drug Administration data, 2009.




OEI-02-08-00080          FDA INSPECTIONS    OF   DO M E S TI C F O O D FA C IL IT I E S                                                       25
                  A P PEN D                   x c

             Agency Comments




                                                                                                   ··Food. ~nd. O~~9 .A4~.i~i~~ra.tion
                                                                                                    SHvet~priD9 rilD.20.993




                     DATE:···         February 16., 20 10 


                     TO:             lJ1spector General 


                                     Principal Deputy Commissioner ofFood andJ?rug s 


                     SU.8J:J!;CT:.    FDA's (leneraJComlnel~tsto OTO's Draft Report entitled, FDA iJ1.)pe.ctions 

                                     o/DOJ1J{!SlicFoQd Facilities, o.El"02"08"0080· . 


                     fPAi~·pI:ovid.iilg tJleAttaclwdge~e~:al ~o1l1ments to the OfflcGofInspeC(Of Qeneral's draftrep(lIi
                     Glltjtled:i<'DA !mpectiOllS Q/1Jome.stic Food Facilirie.s, OEIcQ2,08-D080.    .

                     PDf.. appreciptestheopportlUli(y to review and comn}Cuto]1thisdrattrGPoli before it is
                     puhlis]lC\l


                                                                     /S/
                                                              Joshu~Sharf.stein,J\lLD...   ..... 

                                                              Principal Deputy COriHl1iSsiollcrofFood and Drugs 



                    Attachment




OEI·02·08·00080             FDA INSPECTIONS OF DOMESTIC FOOD FACILITIES                                                                  26
    A   P   P E N D   I X      ~        C




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S   27
    A   P   P E N D   I X      ~        C




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S   28
    A   P   P E N D   I X      ~        C




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S   29
    A   P   P E N D   I X      ~        C




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S   30
    A   P   P E N D   I X      ~        A
           A P
              C PK EN NO DW I L X E DB G M
                                         E M
                                           E N
                                             E N
                                               T ST S


                      This report was prepared under the direction of Jodi Nudelman,
                      Regional Inspector General for Evaluation and Inspections in the New
                      York regional office, and Meridith Seife, Deputy Regional Inspector
                      General.

                      Other principal Office of Evaluation and Inspections staff from the New
                      York regional office who contributed to the report include Lucia P. Fort,
                      Vincent Greiber, and Bailey Gerstle Orshan; central office staff who
                      contributed include Robert Gibbons and Sandy Khoury.




OEI-02-08-00080       FDA INSPECTIONS   OF   DO M E S TI C F O O D FA C IL IT I E S               31
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
